             Audit Report




Improper Payments Resulting from
  Unresolved Delayed Claimants




     A-09-12-22100 | February 2014
MEMORANDUM


Date:      February 7, 2014                                                   Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Improper Payments Resulting from Unresolved Delayed Claimants (A-09-12-22100)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration had adequate controls to ensure it resolved delayed
           claimants and paid benefits due all affected beneficiaries.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Improper Payments Resulting from Unresolved Delayed
Claimants
A-09-12-22100
February 2014                                                               Office of Audit Report Summary

Objective                                  Our Findings

To determine whether the Social            Since we issued our 2009 audit, SSA had reduced the number of
Security Administration (SSA) had          unresolved delayed claimants. However, our current review found
adequate controls to ensure it resolved    that SSA’s controls did not always ensure it properly resolved all
delayed claimants and paid benefits        delayed claimants. Based on our random sample, we estimate that
due all affected beneficiaries.            if SSA

Background                                 •   approves the auxiliary or survivor delayed claimants on
                                               1,620 records, they would be due about $9.1 million and
Auxiliary and survivor claimants
who have filed a claim but have not        •   does not approve the delayed claimants, the currently entitled
provided all the required evidence of          auxiliary beneficiaries on 1,710 records will be improperly paid
eligibility are placed in a delayed            about $6.8 million.
payment status.
                                           We also estimate that SSA did not timely resolve the delayed
SSA considers delayed claimants            claims for 2,730 records. This occurred because SSA employees
entitled when it computes benefit          did not (1) establish diaries for claimants placed in delayed status,
payments for currently entitled            (2) take appropriate action on the diaries when they matured, or
beneficiaries on the same record. This     (3) resolve alerts for delayed claimants.
protects delayed claimants from losing
benefits and prevents overpayments to      Our Recommendations
currently entitled beneficiaries if SSA
subsequently determines the delayed        We recommend that SSA:
claimants are entitled. If, however, the
delayed claimant is denied, the benefit    1. Take appropriate action to resolve the 61 records with delayed
payments to the entitled beneficiaries        claimants identified by our audit.
are increased.
                                           2. Evaluate the results of its corrective action for the 61 records
In a 2009 audit, we found that SSA did        and determine whether it should review the remaining
not always take appropriate action to         population of 5,801 records with delayed claimants who have
resolve delayed auxiliary or survivor         been pending more than 90 days.
claimants. We estimated that if SSA
                                           3. Remind employees of the proper policies and procedures to
approved the delayed claimants, the
                                              establish and take action on diaries and alerts received for
auxiliary or survivor claimants on
                                              claimants in delayed status.
5,680 records would be due about
$29.6 million and, if not approved,        SSA agreed with our recommendations.
SSA improperly paid the currently
entitled auxiliary beneficiaries on
6,680 records about $22 million.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Benefits Withheld from Delayed Claimants ..............................................................................3
     Benefits to Currently Entitled Beneficiaries Were Reduced .....................................................4
     Delayed Claimants Not Timely Resolved..................................................................................4
     SSA Actions in Response to Our Prior Audit ............................................................................5
Conclusions ......................................................................................................................................7
Recommendations ............................................................................................................................7
Agency Comments ...........................................................................................................................7
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)
ABBREVIATIONS
MBR                 Master Beneficiary Record

OIG                 Office of the Inspector General

POMS                Program Operations Manual System

RETAP               Regular Transcript Attainment and Selection Pass

SSA                 Social Security Administration

U.S.C.              United States Code




Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had adequate
controls to ensure it resolved delayed claimants and paid benefits due all affected beneficiaries.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance program under title II of the
Social Security Act. 1 This program provides monthly benefits to retired and/or disabled workers
and their families and to survivors of deceased workers. Auxiliary benefits are paid to the
spouses and children of retired and/or disabled workers while survivor benefits are paid to the
widows and children of deceased workers. 2

SSA requires that auxiliary and survivor claimants submit evidence to establish their entitlement
to benefits. Individuals who have filed a claim but who have not provided all the required
evidence of eligibility are placed in a delayed payment status. When a claimant is placed in
delayed payment status, SSA must control the claim by establishing a diary in the Modernized
Claims System. These diaries remind employees there is an outstanding issue, and they should
follow up to resolve a delayed claimant. In addition, SSA’s Regular Transcript Attainment and
Selection Pass (RETAP) generates alerts 6 months after a claimant is placed in delayed status
to notify employees there is still an outstanding issue for a delayed claimant. 3

SSA considers delayed claimants to be entitled when computing benefit payments for currently
entitled beneficiaries on the same record. This protects delayed claimants from losing benefits
and prevents overpayments to currently entitled beneficiaries if SSA subsequently determines the
delayed claimants are entitled. If, however, the delayed claimant is denied, the benefit payments
to the entitled beneficiaries are increased. 4

In a 2009 audit, 5 we found that SSA did not always take appropriate action to resolve delayed
auxiliary or survivor claimants and properly pay all affected beneficiaries. We estimated that if
SSA (1) approved the delayed auxiliary or survivor claimants on 5,680 records, they were due
about $29.6 million or (2) did not approve the delayed claimants, currently entitled auxiliary and
survivor beneficiaries on 6,680 records were due about $22 million.




1
    The Social Security Act, § 201 et seq., 42 U.S.C. § 401 et seq.
2
    The Social Security Act, § 205 et seq., 42 U.S.C. § 405 et seq.
3
    SSA, POMS, GN 01010.140 (May 7, 2013).
4
    Id.
5
 SSA, OIG, Improper Payments Resulting From Unresolved Delayed Claimants (A-09-08-18006),
September 25, 2009.



Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                        1
For our current audit, we identified 6,001 records that had at least 1 delayed auxiliary or survivor
claimant and 1 currently entitled auxiliary beneficiary on the same record. From this population,
we selected a random sample of 200 records for review (see Appendix A).

RESULTS OF REVIEW
Since our prior audit, SSA had reduced the number of unresolved delayed claimants. However,
SSA’s controls did not always ensure it properly resolved all delayed claimants. Based on our
random sample, we estimate that if SSA

•     approves the auxiliary or survivor delayed claimants on 1,620 records, they would be due
      about $9.1 million and

•     does not approve the delayed claimants, the currently entitled auxiliary beneficiaries on
      1,710 records will be improperly paid about $6.8 million.

We also estimate that SSA did not timely resolve the delayed claims for 2,730 records. 6

This occurred because SSA employees did not (1) establish diaries for claimants placed in
delayed status, (2) take appropriate action on the diaries when they matured, or (3) resolve alerts
for delayed claimants.

We are 90-percent confident the number of records with underpaid delayed claimants ranged
from 1,318 to 1,953, and the amount of benefits due ranged from $6.4 to $11.9 million. In
addition, we are 90-percent confident the number of records with improperly paid currently
entitled auxiliary beneficiaries ranged from 1,402 to 2,047, and the amount of improper
payments ranged from $5 to $8.5 million. Finally, we are 90-percent confident the number of
records that were not timely resolved ranged from 2,379 to 3,088 (see Appendix B).

Our review of the 200 records in our sample found that SSA had not properly resolved
61 (30.5 percent) records. 7 For 91 (45.5 percent) records, SSA did not resolve the delayed
claimants in a timely manner. Although SSA subsequently took corrective action, the delayed
claimants were not resolved for an average of 435 days. 8 For the remaining 48 (24 percent)
records, SSA properly resolved the delayed claimants in a timely manner. The following chart
summarizes the results of our review.




6
    For our review, we used a standard of 90 days to determine whether SSA had resolved delayed claims timely.
7
 Of the 61 records that were not properly resolved, 54 affected the delayed claimants and 57 affected the currently
entitled auxiliary beneficiaries.
8
    The mean was 435 days. The median was 384 days.



Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                                         2
       Figure 1: Improper Payments Resulting from Unresolved Delayed Claimants



                           Based on Random Sample of 200 Records


        Not Timely                                                              Properly Resolved
     Resolved (45.5%)                                                                (24%)




                                                                                  Not Properly
                                                                                Resolved (30.5%)




Benefits Withheld from Delayed Claimants
According to SSA policy, every reasonable effort should be made to assist a claimant in
obtaining the necessary evidence to establish eligibility and entitlement for benefits. Evidence
that may be required includes proof of age, marriage, and dependent children’s relationships.
When the required documentation is not readily available, SSA places the claimant in delayed
payment status. SSA employees should establish a field office control and a separate processing
center diary when processing a delayed claim. 9 In addition, RETAP alerts employees that a
claimant has been in delayed status for longer than 6 months. RETAP issues alerts each quarter
thereafter until the delayed claimant is resolved.

Our review of a random sample of 200 records disclosed that SSA had not properly resolved
61 records (30.5 percent), of which 54 had delayed claimants who would be underpaid if SSA
determines they are entitled to benefits. This included 52 records from our current audit and
2 from our prior audit for which SSA had not taken corrective action. RETAP generates alerts
for delayed claimants. However, we found no evidence that SSA employees had taken timely
action on these alerts or established diaries for the claimants. As a result, SSA had not resolved
$304,345 in benefits that it withheld from these claimants.




9
 SSA, POMS, GN 01010.410 (June 6, 2013), GN 01010.260.A.2 (November 10, 2011), and GN 01010.140.A.1
(May 7, 2013).



Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                         3
For example, in February 2012, SSA placed a claimant in delayed status and withheld benefits
pending receipt of additional evidence to support the claim. As of July 2013, the claimant had
been in delayed status for 502 days. Although RETAP generated an alert, SSA had not resolved
the claimant’s delayed status. In addition, we found no evidence that SSA had established a
diary for the delayed claimant. If SSA determines the delayed claimant is entitled to benefits,
the beneficiary would be due $12,598.

Benefits to Currently Entitled Beneficiaries Were Reduced
When SSA places a claimant in delayed status, it reduces the monthly benefit amount payable
to currently entitled beneficiaries on the same record. This ensures that SSA will not overpay
currently entitled beneficiaries if it subsequently determines the delayed claimant is eligible for
benefits. However, if the delayed claimant does not provide the necessary evidence to establish
eligibility and SSA denies the claim, it should increase the monthly benefit amount payable to
the currently entitled beneficiaries. 10

Since delayed claimants reduce the monthly benefits of currently entitled beneficiaries, we
determined whether the currently entitled beneficiaries were properly paid. Our review of the
200 records in our sample disclosed that 57 (28.5 percent) had currently entitled beneficiaries
who may have been improperly paid. This included 55 records from our current audit and
2 from our prior audit. If SSA were to deny the delayed claimants, these currently entitled
beneficiaries were improperly paid $225,611. RETAP generated alerts for the delayed
claimants. However, SSA employees had not taken timely action on the alerts. In addition,
SSA employees had not established diaries or resolved the diaries when they matured.

For example, in March 2011, SSA placed a claimant in delayed status and reduced a currently
entitled beneficiary’s monthly benefit amount. As of July 2013, the claimant had been in
delayed status for 826 days. RETAP generated an alert to remind SSA employees to resolve the
claimant’s delayed status. However, we found no evidence that SSA had resolved the RETAP
alerts or established diaries for the delayed claimant. If SSA determines the delayed claimant is
not entitled to benefits, the currently entitled beneficiary will be underpaid $7,344.

Delayed Claimants Not Timely Resolved
SSA must disallow or deny delayed claimants if they do not provide the evidence needed to
prove entitlement within 30 days. If SSA does not receive the evidence after 15 days, it sends a
follow-up letter to notify the claimant that SSA will deny their application for benefits after the
30-day period has elapsed. 11




10
     SSA, POMS, GN 01010.140 (May 7, 2013).
11
     SSA, POMS, GN 01010.410 (June 6, 2013).



Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                         4
For 91 (45.5 percent) of the 200 records in our sample, SSA had not timely resolved the delayed
claimants. 12 We found that SSA did not resolve the delayed claimants for an average of
435 days. 13 In one instance, SSA withheld benefits for as long as 1,817 days (about 5 years).
The following chart summarizes the number of days that delayed claimants were not timely
resolved.

                                                 Figure 2: Delayed Claimants Not Timely Resolved



                                                  Based on Random Sample of 200 Beneficiaries

                                   20
         Number of Beneficiaries




                                   15


                                   10


                                   5


                                   0
                                        91-180    181-270   271-360   361-450   451-540   541-630   631-720 Over 720

                                                            Number of Days Benefits Were Withheld



SSA Actions in Response to Our Prior Audit
Our 2009 audit 14 found that SSA did not always take appropriate action to resolve delayed
auxiliary or survivor claimants and properly pay all affected beneficiaries. We estimated that if
SSA (1) approved the delayed auxiliary or survivor claimants on 5,680 records, they were due
about $29.6 million or (2) did not approve the delayed claimants, the currently entitled auxiliary
beneficiaries on 6,680 records were due about $22 million. Our prior report included the
following recommendations for corrective action.




12
     For our review, we used a standard of 90 days to determine whether SSA had resolved delayed claims timely.
13
     The mean was 435 days. The median was 384 days.
14
  SSA, OIG, Improper Payments Resulting From Unresolved Delayed Claimants (A-09-08-18006),
September 25, 2009.



Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                                          5
1. Take corrective action to resolve the 28 records with delayed claimants identified by our
   audit.

       SSA Action – SSA stated it took action to implement this recommendation.

       OIG Comment – SSA had taken corrective action on all 28 records with delayed claimants.

2. Identify and take corrective action on the population of delayed claimants who had been
   pending more than 90 days.

       SSA Actions – SSA stated it identified 28,749 records with delayed claimants pending longer
       than 90 days. In January 2010, SSA notified its regional offices and processing centers to
       resolve these cases and improve controls over delayed claimants.

       OIG Comments – SSA generally took corrective action on the population of delayed
       claimants in our prior audit. For our current audit, we found that SSA had not properly
       resolved 61 of the 200 records in our sample. Of the 61 records, only 2 were from our prior
       audit.

3. Improve controls to ensure delayed claimants are resolved within appropriate timeframes.

       SSA Actions – SSA revised RETAP to generate alerts that identify delayed claimants pending
       for more than 6 months. In addition, RETAP generates three additional alerts per year until
       the claim is processed.

       OIG Comments – SSA’s actions reduced the number of unresolved delayed claimants.
       The population of records with delayed auxiliary and survivor claimants decreased from
       12,360 in our prior audit to 6,001 in our current audit. However, based on our sample of
       200 records, SSA had not resolved the delayed claimants for an average of 371 days. 15

4. Remind employees to diary, follow up on, and timely resolve delayed claimants.

       SSA Actions – SSA stated it developed delayed claims processing instructions and updated
       several policy references. In March 2010, SSA issued a reminder for field offices and
       processing centers to resolve delayed claimants timely. 16

       OIG Comments – SSA took action to implement this recommendation. However, based on
       the results of our current review, additional actions may be needed to ensure SSA employees
       resolve delayed claimants timely.




15
     The mean was 371 days. The median was 335 days.
16
     SSA, Administrative Message 10026, March 1, 2010.



Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                        6
CONCLUSIONS
Since our prior audit, SSA had reduced the number of unresolved delayed claimants. However,
SSA’s controls did not always ensure it properly resolved all delayed claimants. Based on a
random sample, we estimate that if SSA approves the delayed claimants, the auxiliary or
survivor claimants on 1,620 records would be due about $9.1 million and, if not approved,
SSA improperly paid the currently entitled auxiliary beneficiaries on 1,710 records about
$6.8 million. We also estimate that SSA did not timely resolve the delayed claimants for
2,730 records (see Appendix B).

RECOMMENDATIONS
We recommend that SSA:

1. Take appropriate action to resolve the 61 records with delayed claimants identified by our
   audit.

2. Evaluate the results of its corrective action for the 61 records and determine whether it
   should review the remaining population of 5,801 records with delayed claimants who have
   been pending more than 90 days.

3. Remind employees of the proper policies and procedures to establish and take action on
   diaries and alerts received for claimants in delayed status.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                   7
                                      APPENDICES




Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)
Appendix A – SCOPE AND METHODOLOGY
We obtained from the Social Security Administration’s (SSA) Master Beneficiary Record
(MBR) a data extract of 6,001 records with at least 1 claimant in delayed status and 1 currently
entitled auxiliary beneficiary on the same record as of May 2012.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, United States Code, and SSA’s
    Program Operations Manual System;

•   interviewed SSA employees from the Offices of Operations and Systems;

•   reviewed a random sample of 200 records;

•   reviewed queries from SSA’s MBR, Claims File Records Management System, Online
    Retrieval System, Paperless, and Processing Center Action Control System, and

•   used SSA’s Interactive Computation Facility to determine the amount of benefits payable to
    the claimants and entitled auxiliary beneficiaries.

We determined whether the computer-processed data from the MBR were sufficiently reliable
for our intended purpose. We tested the data to determine their completeness and accuracy.
These tests allowed us to assess the reliability of the data and achieve our audit objective.

We evaluated the adequacy of SSA’s controls and procedures to ensure it resolved delayed
claimants and paid benefits due all affected beneficiaries. In our prior audit, 1 we reported the
payments that may have been due delayed claimants and entitled auxiliary beneficiaries from
the date that SSA withheld the benefits to November 2008. For our current audit, the amounts
reported represent the payments that may be due from December 2008 to January 2013.

We conducted audit work in Richmond, California, and Baltimore, Maryland, between March
and August 2013. The entity audited was the Office of Operations under the Office of the
Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




1
 SSA, OIG, Improper Payments Resulting from Unresolved Delayed Claimants (A-09-08-18006),
September 25, 2009.



Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                   A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
From the Social Security Administration’s (SSA) Master Beneficiary Record (MBR), we
obtained a data extract of 6,001 records with 1 or more auxiliary or survivor claimants in delayed
status and 1 or more currently entitled auxiliary beneficiaries as of May 2012. From this
population, we selected a random sample of 200 records for review.

We found that SSA had not properly resolved 61 of the 200 records. 1 Projecting our sample
results to the population of 6,001 records, we estimate that SSA had not properly resolved the
delayed claims for 1,830 records.

•     If SSA approves the auxiliary or survivor delayed claimants on 54 records, they would be
      due $304,345. Projecting our sample results to the population of 6,001 records, we estimate
      that SSA withheld about $9.1 million in benefits from 1,620 claimants.

•     If SSA does not approve the delayed claimants, the currently entitled auxiliary beneficiaries
      on 57 records were improperly paid $225,611. Projecting our sample results to the
      population of 6,001 records, we estimate that SSA withheld about $6.8 million in benefits
      from 1,710 claimants.

We also found that SSA had not timely resolved the delayed claimants for 91 of the 200
records. 2 Projecting our sample results to the population of 6,001 records, we estimate that SSA
did not timely resolve the delayed claims for 2,730 records.

The following tables provide the details of our sample results and statistical projections.

                                  Table B–1: Population and Sample Size

                        Description                                               Records
                     Population Size                                                 6,001
                       Sample Size                                                     200




1
 Of the 61 records that were not properly resolved, 54 affected the delayed claimants and 57 affected the currently
entitled auxiliary beneficiaries.
2
    For our review, we used a standard of 90 days to determine whether SSA had resolved delayed claims timely.



Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                                    B-1
                       Table B–2: Delayed Claimants Not Properly Resolved

                     Description                                              Records
                   Sample Results                                                 61
                    Point Estimate                                              1,830
             Projection – Lower Limit                                           1,514
             Projection – Upper Limit                                           2,172
Note:   All statistical projections are at the 90-percent confidence level.

                                       Table B–3: Delayed Claimants

           Description                                Records                     Benefits Due
         Sample Results                                      54                         $304,345
         Point Estimate                                  1,620                      $9,131,872
    Projection - Lower Limit                             1,318                      $6,377,286
    Projection - Upper Limit                             1,953                     $11,886,457
Note:   All statistical projections are at the 90-percent confidence level.

                       Table B–4: Currently Entitled Auxiliary Beneficiaries

           Description                                Records                  Improper Payments
         Sample Results                                      57                         $225,611
         Point Estimate                                  1,710                      $6,769,458
    Projection - Lower Limit                             1,402                      $4,991,222
    Projection - Upper Limit                             2,047                      $8,547,694
Note:   All statistical projections are at the 90-percent confidence level.

                        Table B–5: Delayed Claimants Not Timely Resolved

                     Description                                              Records
                   Sample Results                                                 91
                    Point Estimate                                              2,730
             Projection – Lower Limit                                           2,379
             Projection – Upper Limit                                           3,088
Note:   All statistical projections are at the 90-percent confidence level.



Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                      B-2
           Appendix C – AGENCY COMMENTS




                                         SOCIAL SECURITY

 MEMORANDUM


Date:      January 3, 2014                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Improper Payments Resulting from Unresolved
           Delayed Claimants” (A-09-12-22100)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                  C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“IMPROPER PAYMENTS RESULTING FROM UNRESOLVED DELAYED
CLAIMANTS” (A-09-12-22100)


Recommendation 1

Take appropriate action to resolve the 61 records with delayed claimants identified by our audit.

Response

We agree. We plan to review and take necessary action on the 61 cases within six months of the
Office of the Inspector General (OIG) issuing the final report.

Recommendation 2

Evaluate the results of its corrective action for the 61 records and determine whether it should
review the remaining population of 5,801 records with delayed claimants who have been pending
more than 90 days.

Response

We agree. We will determine whether reviewing the remaining records is appropriate after
resolving the 61 cases previously reported.

Recommendation 3

Remind employees of the proper policies and procedures to establish and take action on diaries and
alerts received for claimants in delayed status.

Response

We agree. We will publish a reminder within six months of OIG issuing the final report.




Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)                  C-2
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Jack H. Trudel, Audit Manager

Daniel Hoy, Senior Auditor




Improper Payments Resulting From Unresolved Delayed Claimants (A-09-12-22100)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
